U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

William P. Barr, Attorney, et al. v. American Association Of Political
Consultants, Inc., et al, S.Ct No. 19-631

Dear Mr. Harris:
For purposes of Rule 37.3, the petitioners hereby provides their blanket consent to the
filing of amicus briefs in support of either or neither party in this case.
Sincerely,
Noel J. Francisco
Solicitor General

cc: See Attached Service List

